   December 12, 2003




Information Technology
Management

Terrorism Information Awareness
Program
(D-2004-033)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAPPS II              Computer Assisted Passenger Prescreening System
DARPA                 Defense Advanced Research Projects Agency
FAR                   Federal Acquisition Regulation
IAO                   Information Awareness Office
INSCOM                Army Intelligence and Security Command
TIA                   Terrorism Information Awareness (formerly Total Information
                         Awareness)
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VlRQlNlA 22202-4704



                                                                 December 12, 2003
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE ADVANCED RESEARCH
                 PROJECTS AGENCY
SUBJECT: Report on Tenorism Information Awarenw Program (Report No.
         D-2004-033)

        We are providing this report for your information and use. This audit was
conducted to complete our response to congressional requests (See Appendix C). Section
8131 of the National Defense Appropriations Act for Fiscal Year 2004 (Public Law 108-87,
September 30,2003) eliminated funding for the majority of the Tmorism Information
Awareness Program components. However, the content of this report remains applicable in
the event that program concerns am resolved or DoD pursues similar technologies in the
future.
        We considered comments from the Director, Defense Research and Engineering
and the Diroctor, Defense Advanced Research Projects Agency on the draft of this report
when preparing the final report. The comments were responsive in accordance with DoD
Directive 7650.3; therefore, additional comments are not required.
         We appreciate the courtesies extended to the staff. Questions should be directed to
Colonel Willian Kelley at (703) 604-9312 (DSN 664-93 12) or Ms. Pamela Vamr at (703)
604-9265 (DSN 664-9265). See Appendix E for the report distribution. The team members
are listed inside the back cover.




                                              Thomas F. Gimble
                                        Acting Deputy Inspector General
                                                for Inte1ligence
         Office of the Inspector General of the Department of Defense
Report No. D-2004-033                                                 December 12, 2003
   (Project No. D2003CM-0056)

                 Terrorism Information Awareness Program

                                Executive Summary

Who Should Read This Report and Why? DoD and Defense Advanced Research
Projects Agency (DARPA) personnel involved in the development of the Terrorism
Information Awareness (TIA) program or anyone interested in using sophisticated
information technology that collects, stores, and analyzes information should read this
report.

Background. This report completes our response addressing concerns of Senators
Grassley, Nelson, and Hagel and discusses whether development of the DARPA TIA
program included safeguards to ensure the technology was properly managed and
controlled in an operational environment (See Appendix C). Section 8131 of the
National Defense Appropriations Act for Fiscal Year 2004 (Public Law 108-87,
September 30, 2003) eliminated funding for the majority of the TIA program
components. However, the content of this report remains applicable in the event that
program concerns are resolved or DoD pursues similar technologies in the future.

DARPA conducts research for DoD and was developing the TIA program to combat
terrorist threats. The TIA research and development effort will integrate information
technologies into a prototype system that will assist intelligence analysts in detecting,
classifying, and identifying potential terrorist activities. The TIA research and
development effort began in FY 2003. DARPA proposed in the President’s FY 2004
Budget an estimated $53.8 million in funding for development of TIA. That amount does
not include however funding for the additional programs DARPA envisions as
component programs of the TIA prototype. DARPA, in coordination with intelligence
activities, is testing TIA capabilities in an operational research and development
environment using real time feedback.

Results. A review of the TIA program to include the developmental contracts showed
that although the TIA technology could prove valuable in combating terrorism, DARPA
could have better addressed the sensitivity of the technology to minimize the possibility
of any Governmental abuse of power and could have assisted in the successful transition
of the technology into the operational environment. As a result, DoD risks spending
funds to develop systems that may be neither deployable nor used to their fullest potential
without costly revisions and retrofits. Because the audit was conducted in response to
congressional requests, we did not perform a review of the DARPA management control
program.

The Under Secretary of Defense for Acquisition, Technology, and Logistics (USD
(AT&L)) in coordination with the Director, DARPA should perform a privacy impact
assessment before TIA type technology research continues. In addition, USD (AT&L)
should appoint a Privacy Ombudsman or equivalent official specifically for the
development of Terrorism Information Awareness type technology who will ensure that
________________________________________________________________________

individual Terrorism Information Awareness type technology are scrutinized from a
privacy perspective as a means of safeguarding individual privacy. The appointee, in
consultation with the Office of the General Counsel, should conduct assessments on the
impact of Terrorism Information Awareness type technology on privacy. (For detailed
recommendations, see Recommendations, Management Comments and Audit Response.)

Management Comments. The Director, Defense Research and Engineering (DR&E),
responding for the USD (AT&L), concurred with both recommendations. The Director,
DR&E concurred with the importance of privacy impact assessments, stating that privacy
impact assessments, focused on specific end-use applications, should precede all
transitions to operational employment of TIA tools. The Director, DR&E stated that the
decision to employ intelligence and synthetic data during the project development phase
reflected deliberate consideration of privacy concerns at a level appropriate for a research
effort. The Director, DR&E also stated that the report should have concluded that the
TIA project did not violate privacy policies of the United States. In addition, the
Director, DR&E stated that in the absence of guidance on privacy impact assessments,
DARPA restricted developmental efforts to intelligence and synthetic databases, formed
review boards, and implemented DARPA research into privacy safeguards.

The Director, DARPA stated that our report did not address the concerns raised by
several U.S. Senators (Senators Grassley, Hagel, and Nelson) that DARPA was
developing a system for domestic law enforcement for which it had no statutory duty to
do so. The Director, DARPA stated that although DARPA acknowledged that TIA could
be used by law enforcement, the report should have explicitly stated that DARPA was not
developing a system for domestic law enforcement. The Director, DARPA stated that
any use by law enforcement would have to be approved by Congress as well as other
authorities. The Director, DARPA also stated that the report should have been clearer
that a privacy impact assessment was not required. See the Management Comments
section of the report for a complete text of the comments.

Audit Response. Although the report stresses that DoD and DARPA need to be
proactive and address policy and privacy measures at the earliest stages, the report does
not assert or conclude that any privacy violations have occurred. In response to the
concerns of the Director, DARPA that the report does not address congressional
concerns, we have included in Appendix C our responses to Senators Grassley, Hagel,
and Nelson, which clearly set forth our objectives for this audit. Relating to the intended
end uses of TIA, senior USD (AT&L) officials in briefings had clearly indicated that TIA
had potential usage by both the intelligence and law enforcement communities. In
response to the Director, DARPA comments on the privacy impact statement, the report
clearly sets forth our position that, in the case of TIA, prudence would dictate that a
requirement for a privacy impact assessment be done as a best business practice though
no firm requirement exists.




                                             ii
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objectives                                                           3

Finding                                                              4

     Privacy Protection

Appendixes
     A. Scope and Methodology                                       16
     B. Congressional Requests                                      17
     C. Department of Department, Office of the Inspector General
          Congressional Responses                                   21
     D. Terrorism Information Awareness Subsystems                  28
     E. Report Distribution                                         30

Management Comments
     Director, Defense Research, and Engineering                    32
     Defense Advanced Research Projects Agency                      34
Background
    This audit was initiated to complete our response to concerns Senators Grassley,
    Hagel, and Nelson raised in letters to the OIG DoD. The report discusses whether
    the development of the Defense Advanced Research Projects Agency (DARPA)
    Terrorism Information Awareness (TIA) program included safeguards to ensure
    the technology was properly managed and controlled in an operational
    environment. To ease public concerns, DARPA changed the name of the program
    in May 2003 from the Total Information Awareness program.

    Defense Advanced Research Projects Agency. DARPA is an agency of DoD
    under the direction, authority, and control of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics (USD[AT&L]) and the Director of the
    Defense Research and Engineering. DARPA conducts research and development
    for DoD. DARPA is charged with maintaining the technological superiority of
    the U.S. military and preventing a technological surprise that would harm our
    national security. The Director of DARPA oversees eight offices. The
    Information Awareness Office (IAO) is one of those offices.

    Information Awareness Office. In response to the attack of
    September 11, 2001, DARPA established the IAO in January 2002. The IAO was
    designed to integrate several existing information technology programs for which
    DARPA was responsible. Those programs focused on using information
    technology to combat terrorism.

    Terrorism Information Awareness Program. The TIA program is a research
    and development effort that began in FY 2003. The program was designed to
    increase the probability that authorized agencies within the United States could
    preempt terrorist actions. The TIA program attempts to integrate information
    technologies into a prototype that could determine the feasibility of searching vast
    quantities of data as well as determines links or patterns in the data that are
    indicative of terrorist activities.
    The TIA program seeks to develop information technology in three areas. Those
    areas are language translation, data search with pattern recognition and privacy
    protection, and advanced collaborative and decision support tools. Language
    translation technology would enable the rapid analysis of foreign languages, both
    spoken and written, and allow analysts to quickly search the translated materials
    for clues about emerging threats. The data search, pattern recognition, and
    privacy protection technologies would permit analysts to search vast quantities of
    data for patterns that suggest terrorist activity while at the same time controlling
    access to the data, enforcing laws and policies, and ensuring detection of misuse
    of the information obtained. The collaborative reasoning and decision support
    technologies would allow analysts from different agencies to share data.

    Although DARPA was developing the technology, it did not intend to use the TIA
    prototype system. DARPA would have instead turned over the prototype for
    adoption to DoD and other Federal agencies.




                                          1
           In its May 2003 report to Congress, DARPA identifies 151 component programs
           that will potentially contribute to the overall TIA model. The report also included
           a proposed FY 2004 President’s budget submission for TIA of $53.8 million. The
           estimate, however, is only for the TIA development effort and does not include
           any of the other programs that will potentially be included in the TIA network.
           See Appendix D for a brief explanation of the subsystems as well as a breakdown
           of the budget for each.

           Section 8131 of the National Defense Appropriations Act for Fiscal Year 2004
           (Public Law 108-87, September 30, 2003) eliminated funding for the majority of
           the TIA program components. The language in the Act directed DARPA to
           terminate the IAO but permitted continuation of four research projects for foreign
           intelligence. Of the four components Congress funded, three were initially
           included in the TIA program.

           DoD Partners in TIA Experiments. For testing TIA capabilities, DARPA and
           the U.S. Army Intelligence and Security Command (INSCOM) created an
           operational research and development environment that uses real time feedback.
           The main node of TIA is located at INSCOM with additional TIA nodes located
           at subordinate INSCOM commands and at other participating organizations
           throughout DoD and the intelligence community. INSCOM is testing TIA
           technologies using information gathered by routine intelligence means.

           The National Security Agency, the Defense Intelligence Agency, the Central
           Intelligence Agency, the DoD Counterintelligence Field Activity, the U.S.
           Strategic Command, the Special Operations Command, the Joint Forces
           Command, and the Joint Warfare Analysis Center are either participating or plan
           to participate with DARPA and INSCOM to test TIA capabilities.

           Other Federal Agency Participation in TIA Experiments. In addition to its
           DoD counterparts, DARPA has discussed with the Federal Bureau of
           Investigation and other non-DoD Federal agencies in support of law enforcement
           and counter terrorism efforts possible participation in the TIA technology
           experiments. DARPA has not yet established any formal agreement outside of
           DoD.




1
    DARPA originally had 16 potential component programs, but FutureMap was subsequently discontinued
    after congressional and public scrutiny.



                                                    2
Objectives
    Our overall audit objective was to assess whether DARPA included the proper
    controls in the developmental contracts for the TIA program that would ensure
    that the technology, when placed in an operational environment, is properly
    managed and controlled.

    We did not perform a review of the management control program because the
    audit was conducted in response to congressional requests (See Appendix B).




                                        3
           Privacy Protection
           Although the DARPA development of TIA-type technologies could prove
           valuable in combating terrorism, DARPA could have better addressed the
           sensitivity of the technology to minimize the possibility for Governmental
           abuse of power and to help ensure the successful transition of the
           technology into an operational environment. Several factors contributed
           to the condition.

                   •   DARPA did not implement the best business practice of
                       performing a privacy impact assessment.

                   •   USD (AT&L) initially provided limited oversight of the TIA
                       development and did not ensure that DARPA included in the
                       effort the appropriate DoD policy, privacy, and legal experts.

                   •   DARPA efforts historically focused on development of new
                       technology rather than on the policies, procedures, and legal
                       implications associated with the operational use of technology.

                   •   The DARPA position was that planning for privacy in the
                       operational environment was not its responsibility because TIA
                       research and experiments used synthetic artificial data or
                       information obtained through normal intelligence channels.

           As a result, DoD risks spending funds to develop systems that may not be
           either deployable or used to their fullest potential without costly revision.


Potential of TIA to Combat Terrorism
    Since September 11, 2001, the Federal Government has emphasized improving
    communication and information sharing among intelligence, counterintelligence,
    and law enforcement communities to prevent terrorist attacks. The congressional
    joint inquiry concluded that technology is not being effectively employed. Even
    though technology development is one of the Nation’s greatest advantages,
    problems persist among the intelligence community in the area of collaboration.

    To resolve collaboration problems, DoD and Congress believe that TIA--once
    developed and proven effective--could help Federal agencies work together as
    well as improve their ability to detect and counter future terrorist attacks. Based
    on public concern that the TIA program will enhance the Government’s power
    along with the fear of potential abuse and misuse of the system, the TIA program
    has generated substantial controversy and criticism.

    Congressional Concerns. In June 2002, DoD announced that DARPA would
    develop the TIA program. Since that time, Congress has repeatedly expressed
    concern about the technology the program would use and associated privacy
    implications. In February 2003, for example, Congress enacted Public Law 108-7
    that stopped all funding for the proposed TIA program until DARPA and the


                                         4
     Pentagon could prove that the program does not violate privacy rights.
     Specifically, the amendment limited DoD ability to implement TIA without prior
     congressional approval and required a report within 90 days. The report, which
     DARPA completed on May 20, 2003, addresses concerns for privacy and includes
     program milestones and budget information for the TIA program.

     Still voicing concerns, Congress eliminated funding for the majority of the TIA
     components in Section 8131 of the National Defense Appropriations Act for
     Fiscal Year 2004 (Public Law 108-87, September 30, 2003). The language in the
     Act directs that DARPA terminate the IAO but permits continuation of four
     research projects for foreign intelligence. Of the four components Congress
     funded, three were initially included in the TIA program.

     Congressional Concerns About Privacy Not New. Congress has criticized the
     Transportation Security Agency’s Computer Assisted Passenger Prescreening
     System II (CAPPS II) because the system potentially impacts the public’s right to
     privacy and civil liberties. CAPPS II is a computer system that can screen the
     backgrounds of airline passengers looking for potential ties to terrorism by
     searching Government and commercial databases in an effort to make
     determinations about individuals as potential aviation security risks. The
     Transportation Security Agency responded to the concerns by narrowing the
     scope of how CAPPS II uses passenger information and limited the length of time
     the information would be collected and maintained. Congress stopped all
     CAPPS II funding until completion of a General Accounting Office review.


Sensitivity of TIA Technology and Best Business Practice
     DARPA could have better addressed the sensitivity of the TIA technology and
     implemented the best business practice of performing a privacy impact
     assessment that would have helped ensure successful transition of the technology
     to an operational environment. DoD and DARPA have indicated two potential
     uses for the TIA technology, one of which would gather foreign intelligence about
     non-Americans and the other domestic information for intelligence and law
     enforcement use. For domestic law enforcement purposes, DARPA should
     consider more fully during development the impact of the technology on an
     individual’s privacy by conducting a privacy impact assessment. Statute does not
     require a privacy impact assessment for systems that involve intelligence
     activities. However, an assessment could provide decisionmakers with enough
     information to help them make fully informed policy, program, system design,
     funding, and procurement decisions that are based on an understanding of the
     privacy implications, the involved risks, and the options available for avoiding or
     mitigating risks. A privacy impact assessment could also help reduce the risk of
     terminating or modifying TIA type technology after implementation to comply
     with privacy laws and regulations.

     Electronic Government Act of 2002. Public Law 107-347, the Electronic
     Government Act of 2002, requires that Federal agencies complete a privacy
     impact assessment before developing or procuring information technology
     systems, or initiating new collections of information. A privacy impact


                                          5
assessment is an explanation of how an agency will build privacy protections into
new information systems. Program personnel complete questions on data
requirements and protection before the system is developed. The agency Chief
Information Officer or equivalent reviews the completed privacy impact
assessments before making the assessment public through either the agency’s
Web site, publication in the Federal Register, or other sources.

The Office of Management and Budget is responsible for issuing guidance
specifying the required contents of a privacy impact assessment. The guidance
has not been disseminated. Once published and disseminated, Government
agencies will be required to conduct the statutorily mandated privacy impact
assessment.

Privacy Impact Assessment as a Best Business Practice. A privacy impact
assessment is a best business practice that certified information system auditors in
the public, private, and Federal sectors use. In the President’s FY 2001 budget,
the President announced an initiative that would make privacy impact assessments
a regular part of development for new Government computer systems. The
privacy impact assessment is a prudent practice from the standpoint that the
assessment provides a framework that ensures privacy is considered throughout
the business or project development cycle particularly at the conceptual and
requirements analysis stage as well as at the final design approval and funding
stage. A privacy impact assessment is typically a public document that explains
how an agency will take privacy considerations into account when purchasing and
creating new information systems as well as when initiating collections of
information.

The requirement to perform a privacy impact assessment does not apply to
systems that involve intelligence activities and because DARPA was using
intelligence and synthetic data in the development and testing activities of TIA, a
privacy impact assessment was not required. Because DARPA anticipated that
TIA would be used for domestic law enforcement, a privacy impact assessment
should have been performed. In addition, DARPA should have performed a
privacy impact assessment because the development of TIA occurred
simultaneously with the transition of the TIA technology in to the operational
environment. Because of the nature of the transition, DARPA should ensure that
privacy is considered at the beginning of the development cycle and should
implement controls that protect privacy during development. Those controls
should ensure the technology is usable from a legal standpoint in the operational
environment for both the intelligence community and the law enforcement
community. In performing a privacy impact assessment, DARPA should gain the
information that they need to work privacy requirements and constraints of the
end users into the project development cycle. DARPA has acknowledged that
privacy and civil liberty issues would have to be carefully considered and
resolved in advance of deployment; however, DARPA may be able to avoid
costly retrofits by implementing privacy controls during the development process
as opposed to after.

Internal Revenue Service’s Privacy Impact Assessment Best Practice. The
Federal Chief Information Officer’s Council endorsed the Internal Revenue
Service’s privacy impact assessment as a Chief Information Officers Council best


                                     6
practice for evaluating privacy risks on information systems. At the Internal
Revenue Service, privacy issues must be addressed when systems are being
developed. The privacy impact assessment process ensures compliance with
applicable laws and regulations. The privacy impact assessment incorporates an
analysis of privacy into the development life cycle of the system so that all system
development initiatives can appropriately consider privacy issues from the earliest
stages of design. The privacy impact assessment process consists of privacy
training, gathering data on privacy issues, identifying and resolving the privacy
risks, and approval by the Internal Revenue Service privacy advocate. Both the
system owner and system developers must work together to complete the privacy
impact assessment. The data must be relevant and necessary and accomplish the
purpose of the system. The data must also be complete, accurate, and timely.
Precise rules must be established not only for the length of time information is
kept but for assuring that the information is properly eliminated at the end of that
time.

TIA Use by Domestic Law Enforcement. DARPA, USD (AT&L), and other
senior DoD leaders envisioned that TIA would be used by both DoD and foreign
intelligence communities as well as law enforcement. The use of TIA by law
enforcement is what has caused the greatest public concern over privacy. The
USD (AT&L) briefed the press that “if TIA proves useful, it would be then turned
over to the intelligence, counterintelligence and law enforcement communities as
a tool to help them in their battle against domestic terrorism.” During
confirmation hearings, the Assistant Secretary of Defense for Homeland Defense
stated, “it is my understanding that if that technology were to be developed, that
the implementation, the operational use of that technology in a domestic context
would be external to the Department of Defense, that it would migrate from
DARPA out into the civilian law enforcement community.” The Assistant
Secretary reconfirmed that position by stating that it was not the intent of the DoD
to operate TIA. “Once the technology is developed utilizing the resources of the
Department of Defense, the intent has been to transfer that technology out to the
civilian community, particularly to civilian law enforcement agencies for their
employment in order to, in this instance, locate that weapon of mass destruction.”
Figure 1 depicts both foreign intelligence use of TIA and law enforcement use of
TIA. DARPA experiments are being accomplished in the foreign intelligence and
counterintelligence community; however, DARPA needs to consider how TIA
will be used in terms of law enforcement to ensure that privacy is built into the
developmental process.




                                     7
                                                                                          T IA V is io n O v e r v ie w …
                                                   C o u n t e r -t e r r o r is m r e q u ir e s a w a r o n t w o f r o n t s – a t h o m e a n d a b r o a d

            D e te c t ¨ C la s s ify ¨ ID                           ¨                  T ra c k                   ¨          U n d e rs ta n d            ¨        P re e m p t
     D
     DooD
        D aanndd FFooree ig
                     rre ignn In
                              Inte
                                 tell C
                                      Coom
                                         mmm uunnity
                                                 ity

                      In te llig e n c e
                                                                                                                                                                     F o r e ig n
     G o v e rn m e n t                                                     In te llig e n c e                                                                       T e rr o r is t
      C o lle c to r s                                                                                                 O p e ra tio n s                               T h re a t

                               C o u n te r                          C o lla b o r a tiv e , M u lti-a g e n c y       C o lla b o ra tiv e , M u lti-a g e n c y
                            In te llig e n c e                         A n a ly tic a l E n v iro n m e n t            P o lic y & O P s E n v iro n m e n t
       P u b lic
                                                   Access
                                                 R e s tr ic te d
                                                   B y L aw
                                                  P o lic y &
                                                 R e g u la tio n
     LLaaw
         w EEnnfo
               forc
                  rceem
                      m eenntt C
                               Coom
                                  mmm uunnity
                                          ity

                   P riv a te                                                  R e p o s ito r ie s
                                                                                                                       P la u s ib le
                                                                      D is c o v e r y                                                           O p t io n s
                                                                                                 M o d e ls             Future s
                                                                         T o o ls
     C o m m e rc ia l
      C o lle c to r s                                                 C o u n te r- In te l                                        P o lic y
                                                   Access                                                                                                            F o r e ig n
                                P u b lic        R e s tric te d    L a w E n fo rc e m e n t                                                                        T e rr o r is t
                                                   B y Law                                                                                                            T h re a t
                                                                                                                                                                       In U S




    Figure 1. TIA Use by Law Enforcement Community


TIA Approval and Oversight
    TIA Program Approval. USD(AT&L) announced in November 2002 that
    DARPA had established the TIA program to aid in the antiterrorist efforts of
    DoD. According to the Director, DARPA established TIA to leverage the
    existing counter terrorism technologies with those new research projects being
    developed after the September 11, 2001, attack. DARPA briefed the TIA
    program to USD (AT&L), at which time USD (AT&L) approved the program and
    deemed it worthy of pursuit.

    TIA Program Oversight. USD (AT&L) initially provided limited oversight of
    TIA development and approved the development without requiring that DARPA
    obtain support from DoD experts in policy, privacy, and legal matters to help
    ensure successful transition of the technology into an operational environment. It
    was not until Congress and the public began to question the developmental effort
    and its impact on privacy that USD (AT&L) and DARPA took action to
    specifically address privacy concerns. In response to concerns, USD (AT&L)
    established two boards that would provide oversight of the TIA program.
    DARPA responded to the issue of privacy by developing certain technical
    safeguards.

           TIA Oversight Boards. DoD established two boards, one an internal
    oversight board and the other an outside advisory committee board, that would
    work with DARPA during the development of TIA. The boards help ensure that
    TIA is developed and operationally transitioned consistent with privacy laws.



                                                                                       8
        Internal Oversight Board. The internal TIA oversight board is
composed of various DARPA and DoD officials and chaired by the USD
(AT&L). The primary function of the board is to establish policies and
procedures for TIA as well as related technologies and establish protocols for
transferring those technologies to entities outside the DoD. The internal oversight
board had its initial meeting in February 2003.

        Outside Advisory Committee Board. The Technology and Privacy
Advisory Committee is an external Federal advisory committee. The committee
advises the Secretary of Defense on policy and legal issues raised during
development or with regard to any potential application of TIA technologies. The
primary duty of the committee is to prepare a written report for the Secretary of
Defense about the use of the advanced information technology to identify
potential terrorist activity. The committee holds meetings as required and has
held five meetings in the past year.

       Technical Safeguards. In its development of TIA, DARPA sponsored
research of privacy safeguards and options that would balance security and
privacy issues. Those measures, however, were not as comprehensive as a
privacy impact assessment would have been in scrutinizing TIA technology.

                Genisys Privacy Protection. The Genisys Privacy Protection
       contractor is working to develop techniques to allow authorized analysts to
       search a collection of databases while providing a realistic degree of
       privacy protection for U.S. citizens who may be represented in those
       databases. The program will develop access control mechanisms to
       restrict the release of sensitive data only to authorized users. The
       contractor is also working to develop inference control, access control, and
       analyst tracking techniques to restrict access to private information and
       monitor usage of private information.

               Center for Strategic and International Studies. The Center for
       Strategic and International Studies is developing approaches for protecting
       private information accessed by the Government. The Center for Strategic
       and International Studies will try to determine whether new models of
       oversight exist and structural or legal privacy protections are available,
       that would permit some use of pattern-based queries. The Center is also
       reviewing other promising technologies that aid in the fight against
       terrorism but protect against Government abuse and unacceptable
       intrusions on privacy.

               The Arlington Institute. DARPA contracted with the Arlington
       Institute for advice on the public’s privacy issues. The Institute is working
       to understand Government concerns and safeguards relative to privacy
       issues, to clearly understand the legitimate concerns of the Government
       for gathering information about potential terrorism, and to provide
       ongoing advice about communication. The ultimate goal of the Arlington
       Institute is to help design aspects of IAO programs.

              The Potomac Institute for Policy Studies. DARPA contracted
       with the Potomac Institute for Policy Studies to review the availability of


                                     9
           useful informational databases, electronic transactional data, and the
           propriety of access to such information in the context of protecting
           Americans from terrorists and terrorism.

                   Information, Security, and Technology 2002 Study. DARPA
           commissioned a study that would examine specific technological problems
           for safeguarding privacy. The study, which was not policy oriented,
           concluded that technologies exist that permit surveillance while
           minimizing exposure of individual information. Those technologies
           included an automated record of individuals accessing the database
           information, the ability to hide an individual’s identity while conducting
           searches of databases with millions of records, and the ability to segregate
           databases and to block access to people without authorization. The study
           was not a critique or endorsement of any specific DARPA program and
           did not attempt to make policy recommendations.


Technology Developers not Users
    DARPA Develops Technology. In 1958, the Secretary of Defense established
    DARPA as the only DoD research agency without a specific operational mission.
    Its charter was radical innovation. DARPA is comprised primarily of engineers
    who do not typically create policy. Because the DARPA mission has in the past
    focused on development of new technology and because they are not the users of
    the technology, DARPA did not fully consider the sensitivity of the technology
    nor did they include DoD experts in privacy, policy, and legal issues for TIA
    development efforts.

    Involvement of Experts in Policy, Privacy, and Legal Issues for TIA
    Experiments. Without a requirement to obtain support from DoD experts on
    policy, privacy, and legal issues, DARPA could have better addressed privacy
    concerns in its development of TIA to help ensure successful transition of the
    technology into an operational environment. Specifically, DARPA did not
    include in TIA experiments DoD representatives from the privacy, policy, and
    legal communities. DARPA stated in the May 2003 report to Congress that the
    goal of TIA research and development is to have the intelligence,
    counterintelligence, operational, and policy domains working together
    comprehensively to counter terrorist attacks. Figure 2 from DARPA briefing
    charts reiterates a lack of participation in TIA experiments by policy makers
    within DoD.




                                        10
    Figure 2. Participation in TIA Experimental Process


Legally Obtained and Synthetic Data
    Use of Information. DARPA did not anticipate privacy issues in an operational
    environment, in part, because the research and testing of TIA depended strictly on
    the use of information that was either obtainable through normal DoD intelligence
    channels or artificial synthetic data that was specifically generated to resemble
    real world transactions. DARPA stated that the use of obtainable intelligence and
    synthetic artificial data does not implicate the privacy interests of U.S. persons.
    However, included in the TIA technology are data search and analysis tools,
    which depend on different types of data contained in databases. The TIA use of
    information from different sources does raise the risk to personal privacy when
    that information is aggregated and made accessible to intelligence, law
    enforcement, and other security personnel for purposes other than the original
    intent.

            Legally Obtained Information. DARPA affirms that organizations from
    DoD intelligence communities participating in TIA development provided the
    foreign intelligence and counter-intelligence information for TIA experiments.
    The information was obtained and usable by the Federal Government under
    existing laws, regulations, and policies.

            Synthetic Data. Because the TIA experiments are using synthetic data,
    which is artificial data generated for research, no U.S. citizen privacy implications
    were associated with its use. The synthetic data resembles and models real-world
    patterns of behavior.




                                         11
    Privacy Act of 1974. Public Law 93-579, Privacy Act of 1974, provides that the
    privacy of an individual is directly affected by the collection, maintenance, use,
    and dissemination of personal information by Federal agencies. The increasing
    use of computers and sophisticated information technology has increased the
    threat to individual privacy that can occur when collecting, maintaining, using,
    and disseminating personal information. The Privacy Act provides certain
    safeguards against the invasion of privacy for an individual. One of the purposes
    of the Privacy Act is to permit individuals to determine which records pertaining
    to them are collected, maintained, or disseminated to other agencies and grants
    individuals the right to access and amend those records if they are not accurate,
    relevant, current, or complete. DoD policy prohibits the disclosure of personally
    identifiable records that Government agencies maintain without a person’s
    consent.

    Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR)
    Part 52, “Protection of Privacy and Freedom of Information,” prescribes to
    Government contracts policies and procedures that apply to the requirements of
    the Privacy Act of 1974. The FAR requires that contracting officers insert
    Privacy Act clauses 52.224-1 and 52.224-2 in contracts. When the design,
    development, or operation of a system of records on individuals is required to
    accomplish an agency function, the clauses require that contractors comply with
    the Privacy act of 1974.

    System Procurement. Focused on research and testing, DARPA awarded three
    contracts and one Other Transaction Agreement for developing TIA architecture.
    The three contracts and the other transaction agreement provided for development
    of the following technologies and programs: the Assured Transition and
    Transformation Prototype Systems Technologies; the Adaptive Red Teaming and
    Experimentation Program; the Closed-Loop, End-To-End Prototype System For
    Early Warning and Decision Making; and the Component Technology Interface
    for TIA. The other transaction agreement includes one subcontractor deliverable
    for technology integration support for “Privacy Protection for Integrated
    Intelligence Operations.” The three contracts did not include any deliverables that
    addressed privacy issues associated with the development of the TIA architecture.
    Because they are using legally obtained information or synthetic data, DARPA
    officials stated that including the FAR clause for privacy in either their
    solicitations for TIA or in the TIA contracts was not necessary. Furthermore, the
    FAR does not apply to other transaction agreements.


Conclusion
    DoD and DARPA could have better addressed the sensitivity of the TIA
    technology and planned for its transition into an operational environment more
    effectively. Because of the lack of foresight, DoD risks spending funds to
    develop systems that may not be deployable or may not be used to their fullest
    potential without costly revisions or retrofits. Moreover, the potential use of this
    technology by domestic law enforcement and the DARPA lack of consideration
    for the sensitivity of the TIA type technology has raised the effort to an
    unnecessarily heightened level of awareness and concern for both Congress and


                                         12
    the public. Both DoD and DARPA need to address policy, privacy, legal, and
    protective measures at the earliest stages of the development to ensure that
    requirements are analyzed and appropriate decisions are made about the data and
    system design. To provide proper safeguards in technology design, development,
    and testing, DARPA needs to address any impacting privacy concerns for each
    application of TIA type technology. For example, experts in policy, privacy, and
    legal issues, if included in the experiments, could assist DARPA developers and
    analysts in addressing the types of data available for use, how to appropriately and
    legally use the data obtained, and address whether the operation of the system
    presents any threats to the privacy and civil liberties of U.S. citizens.


Management Comments on the Overall Report and Audit
 Response
    Comments on the overall report were received from the Director, Defense
    Research, and Engineering and the Director, DARPA. Full management
    comments can be found in the Management Comments section.

    Director, Defense Research and Engineering Comments. The Director,
    Defense Research and Engineering (DR&E) responded for USD (AT&L). The
    Director, DR&E concurred with the importance of privacy impact assessments,
    stating that privacy impact assessments, focused on specific end-use applications,
    should precede all transitions to operational employment of TIA tools. The
    Director, DR&E stated that the decision to employ intelligence and synthetic data
    during the project development phase reflected deliberate consideration of privacy
    concerns at a level appropriate for a research effort. The Director, DR&E also
    stated that the report should have concluded that the TIA project did not violate
    privacy policies of the United States. According to the Director, DR&E, the
    report serves a useful purpose in discussing privacy concerns and protective
    processes that should be addressed during transition of research projects to
    domestic applications. In the absence of guidance from the Office of
    Management and Budget on the contents of a privacy impact statement, the
    Director, DR&E stated that DARPA restricted developmental efforts to
    intelligence and synthetic databases, formed review boards, and implemented
    DARPA research into privacy safeguards.

    Director, Defense Advanced Research Projects Agency. The Director,
    DARPA stated that the report did not address the concerns raised by several U.S.
    Senators (Senators Grassley, Hagel, and Nelson) that DARPA was developing a
    system for domestic law enforcement for which it had no statutory duty to do so.
    The Director, DARPA stated that the report should have explicitly stated that
    DARPA was not developing a system for domestic law enforcement. The
    Director, DARPA stated that DARPA acknowledged in its February 2003
    Strategic Plan and the May 2003 report required by the Wyden Amendment that
    TIA could be used by Law Enforcement; however, any use by domestic law
    enforcement would have to be approved by Congress as well as other authorities.
    The Director, DARPA stated that the report should have been clearer that a
    privacy impact assessment was not required. In addition, the Director, DARPA



                                        13
    acknowledged that if a law enforcement organization wanted to use TIA products,
    it would be required to perform a privacy impact assessment.

    Audit Response. Although the report stresses that DoD and DARPA need to be
    proactive and address policy and privacy measures at the earliest stages, the report
    does not assert or conclude that any privacy policy violations have occurred. In
    response to the concerns of the Director, DARPA that the report does not address
    congressional concerns, we have included in Appendix C our responses to
    Senators Grassley, Hagel, and Nelson, which clearly set forth our objectives for
    this audit. Relating to the intended end uses of TIA, senior USD (AT&L)
    officials in briefings clearly indicated that TIA had potential usage by both the
    intelligence and law enforcement communities. As the report states, USD
    (AT&L) briefed the press that if TIA proved useful, it would be turned over to the
    intelligence, counterintelligence, and law enforcement communities as a tool in
    the battle against domestic terrorism. In confirmation hearings, the Assistant
    Secretary of Defense for Homeland Defense stated that it was his understanding
    that if TIA technology were developed, the operational use of that technology in a
    domestic context would migrate into the civilian law enforcement community. In
    response to the Director, DARPA comments on the privacy impact statement, the
    report clearly sets forth our position that, in the case of DARPA, although no firm
    requirement existed for a privacy impact statement, prudence would dictate that
    one be done as a best business practice—refer to the report section on page 6
    entitled Privacy Impact Assessment as a Best Business Practice.


Recommendations, Management Comments and Audit
  Response
    We recommend that the Under Secretary of Defense for Acquisition, Technology,
    and Logistics USD (AT&L) in coordination with the Director, Defense Advanced
    Research Projects Agency:

    1. Perform a Privacy Impact Assessment before Terrorism Information
    Awareness type technology research continues. Specifically, the privacy
    impact assessment at a minimum should:

                  a. Identify any personally identifiable information associated
    with business processes.

                  b. Document any collection, use, disclosure, and destruction of
    personally identifiable information.

                  c. Assess potential privacy risk and the options available for
    mitigating that risk.

                  d. Ensure that accountability for privacy issues is clearly
    incorporated in the program.

                 e. Create a consistent format and structured process for
    analyzing both technical and legal compliance with relevant regulations.


                                        14
Director, DR&E Comments. The Director, DR&E concurred with comment,
stating that the establishment of additional oversight mechanisms by USD
(AT&L) through the Internal Oversight Board and the Outside Advisory
Committee Board (Technology and Privacy Advisory Committee) are equivalent
processes to privacy act assessments. The Director, DR&E stated that ongoing
reviews of TIA projects provide effective assessments of data employment and
knowledge products during the research and technology development phase. The
Director, DR&E also stated that formal privacy impact assessments should be
conducted, reviewed, and approved before authorizing use of TIA tools in
operational applications.

Audit Response. The Director, DR&E comments satisfy the intent of the
recommendation.

        2. Appoint a Privacy Ombudsman or equivalent official specifically
for the development of Terrorism Information Awareness type technology
who will ensure that individual Terrorism Information Awareness type
technology are scrutinized from a privacy perspective as a means of
safeguarding individual privacy. The official, in consultation with the Office
of the General Counsel, should:

             a. Conduct assessments on the impact of Terrorism
Information Awareness type technology on privacy.

               b. Ensure that the Terrorism Information Awareness type
technologies strike the proper balance between the need for identifying
information and the individuals’ right to be protected against unwarranted
intrusions into his or her personal privacy.

              c. Ensure that the collection, use, and disclosure of identifying
information is authorized by existing law, to include the Privacy Act.

              d. Ensure that appropriate safeguards are adopted that will
protect the confidentiality of the information during the development of the
technology and when transitioned to another DoD or Federal agency.

Director, DR&E Comments. The Director, DR&E concurred with the
recommendation.




                                   15
Appendix A. Scope and Methodology
    We performed this audit from January 2003 through October 2003 in accordance
    with generally accepted government auditing standards. We visited DARPA
    headquarters in Arlington, Virginia, and interviewed DARPA personnel from the
    IAO and the Contract Management office. We also interviewed officials from the
    Defense Privacy Office; the Office of the Assistant Secretary of Defense for
    Homeland Defense; the Office of the Assistant to the Secretary of Defense for
    Intelligence Oversight; the Office of General Counsel; and the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics. During
    the interviews, we obtained pertinent reports and knowledge on the Terrorism
    Information Awareness Program.
    During the audit, we reviewed the Federal laws and DoD directives and
    regulations that relate to the protection of privacy. We reviewed the DARPA
    solicitation for development of TIA as well as three developmental contracts, one
    other transaction agreement, and contractual supporting documentation to include
    the four statements of work. In addition, we reviewed four statements of work for
    technical safeguard contracts funded by DARPA and analyzed the DARPA
    commissioned Information, Security, and Technology 2002 Study. The scope of
    the audit was limited in that we did not perform a review of the management
    control program because the audit was conducted in response to congressional
    requests.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD high-risk area identified as “Effectively manage information technology
    investments.”


Prior Coverage
    No prior coverage has been conducted on TIA during the last 5 years.




                                       16
Appendix B. Congressional Requests




                     17
18
19
20
Appendix C. Inspector General of the
Department of Defense Congressional Responses




                     21
22
23
24
25
26
27
Appendix D. TIA Subsystems
Genisys. The Genisys Program seeks to produce technology that can integrate and
broaden databases as well as other information sources and support effective intelligence
analysis aimed at preventing terrorist attacks. Projected funding for FY 2003 through
FY 2005: $22.8 million.
Genisys Privacy Protection. The Genisys Privacy Protection program aims to provide
security with privacy by controlling access to unauthorized information, enforcing laws
and policies, and ensuring that any misuse of data can be quickly detected and addressed.
Projected funding for FY 2003 through FY 2005: $13.8 million.
EELD (Evidence Extraction and Link Discovery). The EELD program is intended to
automatically extract evidence about relationships among people, organizations, places,
and things from unstructured textural data, such as intelligence messages or news reports,
which are the starting points for further analysis. Projected funding for FY 2002 through
FY 2005: $44.6 million.
SSNA (Scalable Social Network Analysis). The SSNA algorithm program will help
distinguish potential terrorist cells based on their patterns of interactions from legitimate
groups of people and identify when a terrorist group plans to execute an attack. Projected
funding for FY 2003 through FY 2005: $7.4 million.
MinDet (Misinformation Detection). The MinDet Program will develop the ability to
detect intentional misinformation and to detect inconsistencies in open source data with
regard to known facts and adversaries’ goals. Other potential uses include the ability to
detect misleading information on various Government forms such as visa applications
that would suggest that a further investigation may be warranted. Projected funding for
FY 2003 through FY 2005: $20 million.
HumanID (Human Identification at a Distance). The HumanID program seeks to
develop technologies that can detect, recognize, and identify humans at a distance.
Projected funding for FY 2002 through FY 2004: $32.2 million.
ARM (Activity, Recognition and Monitoring). The ARM Program seeks to develop an
automated capability that can reliably capture, identify, and classify human activities in
surveillance environments. Projected funding for FY 2004 through FY 2005:
$15 million.
NGFR (Next-Generation Face Recognition). The NFGR Program seeks to develop a
new generation of facially based biometrics. Projected funding for FY 2004 through
FY 2005: $17.1 million.
GENOA II. GENOA II will provide for TIA collaborative reasoning tools that will
enable distributed teams of analysts and decision-makers to more effectively use the
information resources available. Projected funding for FY 2003 through FY 2005:
$50.8 million.
WAE (Wargaming the Asymmetric Environment). The WAE Program seeks to
develop automated predictive models that are tuned to the behavior of specific foreign


                                             28
terrorist groups and will facilitate development of more effective force protection and
intervention strategies. The WAE Program predates both the IAO and the TIA program.
Projected funding for FY 2002 through FY 2004: $41.7 million.
RAW (Rapid Analytical Wargaming). The RAW Program will develop an analytical
simulation that supports U.S. readiness across analytical, operational, and training
domains for asymmetric and symmetric missions. Projected funding for FY 2004
through FY 2005: $16.9 million.
FutureMAP (Futures Markets Applied to Prediction). The FutureMAP Program was
designed to provide DoD with market-based techniques for avoiding surprise and
predicting future events. DoD cancelled the FutureMAP program in July 2003.
Projected funding for FY 2004 through FY 2005: $8 million.
EARS (Effective, Affordable, Reusable Speech-to-Text). The EARS technology aims
to create effective speech-to-text technology for human to human speech, focusing on
broadcasts and telephone conversations to produce technology that can be rapidly
translated to many languages and a number of applications. No costs or milestones dates
were available.
TIDES (Translingual Information Detection, Extraction, and Summarization).
TIDES aims to make it possible for English speakers to find and interpret needed
information quickly and effectively, regardless of language or medium. Milestone dates
were given but no costs were available.
GALE (Global Autonomous Language Exploitation). GALE aims to make it possible
for machines to discover critical foreign intelligence information in vast quantities of
human language, both speech and text, from around the globe, delivering it in actionable
form to military operators and intelligence analysts without requiring them to issue
specific requests. Projected funding for FY 2002 through FY 2005: $156.7 million.
Bio-ALIRT (Bio-Event Advanced Leading Indicator Recognition Technology). The
objective of the Bio-ALIRT Program is to develop technology for early detection of a
covert biological attack. The Bio-ALIRT Program predates both the IAO and the TIA
program. Projected funding for the FY 2002 through FY 2004: $33.4 million.




                                           29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
Under Secretary of Defense for Intelligence
Assistant Secretary of Defense Networks and Information Integration
Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant to the Secretary of Defense (Intelligence Oversight)

Department of the Army
Auditor General, U.S. Army Audit Agency
Inspector General, Department of the Army
Commander, U.S. Army Intelligence and Security Command

Department of the Navy
Naval Inspector General
Naval Audit Service
Department of the Navy, Superintendent Naval Postgraduate School

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Washington Headquarters Service
   Director, Defense Privacy Office
Director, Defense Contract Audit Agency
Defense Contract Management Agency
Director, Defense Information Systems Agency
Defense Intelligence Agency
Director, Defense Logistics Agency
Defense Systems Management College
Inspector General, National Geospatial-Intelligence Agency
National Security Agency


                                          30
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Subcommittee on Emerging Threats and Capabilities Committee on Armed
  Services
Senate Select Committee on Intelligence
Senate Subcommittee on Terrorism Unconventional Threats and Capabilities
Senate Permanent Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security Emerging Threats and International Relations
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census
Honorable Charles E Grassley, U.S. Senate
Honorable Chuck Hagel, U.S. Senate
Honorable Bill Nelson, U. S. Senate




                                            31
Director, Defense Research and Engineering
Comments
                                             Final Report
                                              Reference




                      32
Final Report
 Reference




Revised
Page 9




               33
Director, Defense Advanced Research Projects
Agency Comments


                                               Final Report
                                                Reference




                                               Revised
                                               See
                                               Appendix C




                      34
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
Colonel William J. Kelley, U.S. Army Reserve
Lisa M. Such
Pamela S. Varner
Sharon Dworkin
Justin Husar
